APPENDIX TO PETITION FOR WRIT OF
CERTIORARI
TABLE OF CONTENTS
A.

Order of the Court of Criminal Appeals
of Tennessee at Jackson, filed
August 31, 2020 .............................................. 1a

B.

Order of the Criminal Court of Tennessee for the Thirtieth Judicial District at
Memphis, filed June 5, 2020 .......................... 8a

C.

Order of the Supreme Court of Tennessee at Jackson, filed
January 14, 2021 .......................................... 19a

D.

Motion
to
Reopen
Petition
for
Post-Conviction Relief, filed
May 10, 2019 ................................................. 20a

E.

Tenn. Code Ann. § 40-30-117. Motions to
reopen, effective: May 27, 2011 .................... 44a

1a
APPENDIX A − ORDER OF THE COURT OF
CRIMINAL APPEALS OF TENNESSEE AT
JACKSON, FILED AUGUST 31, 2020
IN THE COURT OF CRIMINAL APPEALS OF
TENNESSEE
AT JACKSON
AKIL JAHI A.K.A. PRESTON CARTER v. STATE
OF TENNESSEE
Criminal Court for Shelby County
No. 93-09760, 93-09761, P-28413
No. W2020-00944-CCA-R28-PD
ORDER
This matter is before the Court on the Petitioner's
application
for
permission
to
appeal
the
post-conviction court's denial of his motion to reopen
his post-conviction petition. The State has responded
in opposition to the motion.

The Petitioner pled guilty to two counts of
felony murder during the perpetration of an
aggravated burglary and was sentenced to death by
a Shelby County jury in 1995. On appeal, the
Tennessee Supreme Court remanded the matter for
a new sentencing hearing due to the use of
improper verdict forms. See State v. Carter, 988
S.W.2d 145 (Tenn. 1999). Upon remand, the
Petitioner was again sentenced to death on both
counts, which was affirmed by the Tennessee
Supreme Court on appeal. See State v. Carter, 114
S.W.3d 895 (Tenn. 2003), cert. denied, 540 U.S.

2a

1221 (2004). The Petitioner then filed a petition for
post-conviction relief in which he alleged, as
relevant here, that he received ineffective assistance of counsel at the resentencing hearing. The
post-conviction court denied relief, and this Court
affirmed on appeal. See Akil Jahi v. State, No.
W2011-02669-CCA-R3-PD, 2014 WL 1004502
(Tenn. Crim. App. Mar. 13, 2014), perm. app.
denied (Tenn. Sept. 18, 2014). In addition, the
Petitioner previously filed two motions to re-open
his post-conviction proceedings, both of which were
denied.
See
Akil
Jahi
v.
State,
No.
W2017-02527-CCA-R28-PD (Tenn. Crim. App. Apr.
24, 2018) (order), perm. app. denied (Tenn. Sept. 17,
2018);
Akil
Jahi
v.
State,
No.
W2016-02201-CCA-R3-PD (Tenn. Crim. App. Aug.
1, 2017) (order), no perm. app. filed.
On May 10, 2019, the Petitioner filed the motion
to reopen post-conviction proceedings at issue herein.
The Petitioner asserted that the recent United States
Supreme Court case of McCoy v. Louisiana, ____ U.S.
____, 138 S. Ct. 1500 (2018) established a new,
retroactively applicable rule of constitutional law that
entitled him to relief. See T.C.A. § 40-30-117(a)(1).
McCoy held that "counsel may not admit her client's
guilt of a charged crime over the client's intransigent
objection to that admission" and that to do so was a
"[v]iolation of a defendant's Sixth Amendment-secured autonomy" to decide the objective of his
defense. Id. at 1510-11. The post-conviction court
denied the motion to reopen, relying on this Court's
decision in Oscar Franklin Smith v. State, No.
M2019-01662-CCA-R28-PD, at *2 (Tenn. Crim. App.
Oct. 28, 2019) (order), perm. app. denied (Tenn. Jan.

3a
15, 2020), in which this Court held that the holding of
McCoy "is limited to the theory of defense during the
guilt phase of a capital trial." See McCoy, 138 S. Ct. at
1505 ("With individual liberty—and, in capital cases,
life—at stake, it is the defendant's prerogative, not
counsel's, to decide on the objective of his defense: to
admit guilt in the hope of gaining mercy at the
sentencing stage, or to maintain his innocence,
leaving it to the State to prove his guilt beyond a
reasonable
doubt.")
(emphasis
added).
The
post-conviction court stated that because McCoy was
inapplicable to the Petitioner's capital sentencing
hearing, it had "no choice but to treat the claims
presented in [the Petitioner's] motion to reopen as a
second post-conviction claim of ineffective assistance
of counsel." The Petitioner filed a timely application
for permission to appeal in this Court. See T.C.A. §
40-30-117(c); Tenn. Sup. Ct. R. 28, § 10(B).
Under the Post-Conviction Procedure Act, a petitioner may seek relief on the basis of claims that arise
after the disposition of the initial petition by filing a
motion to reopen the post-conviction proceedings
"under the limited circumstances set out in §
40-30-117." T.C.A. § 40-30-102(c); see Fletcher v.
State, 951 S.W.2d 378, 380 (Tenn. 1997). As relevant
here, a motion to reopen must assert:

(1) The claim in the motion is based upon a final
ruling of an appellate court establishing a constitutional right that was not recognized as
existing at the time of trial, if retrospective
application of that right is required. The motion
must be filed within one (1) year of the ruling of
the highest state appellate court or the United

4a

States supreme court establishing a constitutional right that was not recognized as existing
at the time of trial; [and]
....
(4) It appears that the facts underlying the
claim, if true, would establish by clear and
convincing evidence that the petitioner is entitled to have the conviction set aside or the
sentence reduced.
T.C.A. § 40-30-117(a). This Court will grant an
application for permission to appeal only if we
conclude that the trial court abused its discretion in
denying the motion to reopen. T.C.A. § 40-30-117(c).
Even assuming that McCoy establishes a retroactively applicable constitutional right that was not
recognized at the time of the Petitioner's resentencing
hearing, we conclude that the post-conviction court
did not abuse its discretion in determining that the
holding of McCoy would not entitle the Petitioner to
relief. McCoy held that when a defendant "expressly
asserts that the objective of 'his defense' is to
maintain innocence of the charged criminal acts, his
lawyer must abide by that objective and may not
override it by conceding guilt." 138 S. Ct. at 1509
(emphasis in original). As the Court explained:

Just as a defendant may steadfastly refuse to
plead guilty in the face of overwhelming evidence against her, or reject the assistance of
legal counsel despite the defendant's own inexperience and lack of professional qualifica-

5a

tions, so may she insist on maintaining her
innocence at the guilt phase of a capital trial.
These are not strategic choices about how best
to achieve a client's objectives; they are choices
about what the client's objectives in fact are.
Id. at 1508 (emphasis altered). As this Court held in
Oscar Franklin Smith, "It is clear from a reading of
McCoy that its holding is limited to the theory of
defense during the guilt phase of a capital trial."
No. M2019-01662-CCA-R28-PD, at *2.
In this case, the Petitioner pled guilty to two
counts of felony murder, and there was never any
question that he committed the acts alleged.
Indeed, by pleading guilty, the Petitioner was
conceding his own guilt rather than adamantly
maintaining his innocence. The Petitioner
complains about counsel's references to "premeditated" murder during voir dire and to the
"cold-blooded" nature of the killings during closing
argument, and he insists that his plea to the
"lesser" offense of felony murder was an "unambiguous objection" to counsel's concession that the
Petitioner was guilty of the "greater" offense of
premeditated murder. 1 However, these complaints
We note that "Tennessee has a single first degree murder
statute that encompasses both premeditated murder and felony
murder. Premeditated murder and felony murder are not
designated by that statute as separate and distinct offenses but
rather as alternative means by which criminal liability for first
degree murder may be imposed." State v. Ely, 48 S.W.3d 710, 721
(Tenn. 2001) (citing T.C.A. § 39-13-202). In other words, "felony
murder is considered equally culpable as premeditated murder,
even though it has a different mental state, because they are
1

6a

relate to counsel's sentencing-phase strategy of
"acknowledging the horrific nature of the offenses"
and focusing on the Petitioner's remorse, which
strategy the Petitioner previously challenged in his
original post-conviction petition. See Akil Jahi,
2014 WL 1004502, at *129. The Petitioner's
objective in this case was not to assert his innocence
but to avoid the death penalty, and McCoy, even if
applicable to a capital sentencing hearing, did not
change the analysis with regard to counsel's
strategic decisions on how best to achieve a
defendant's objective, specifically stating that
decisions regarding "what arguments to pursue"
are within "the lawyer's province." 138 S. Ct. at
1508 (quoting Gonzalez v. United States, 553 U.S.
242, 248 (2008)).
Because the holding of McCoy is not applicable to
the facts of this case and would not entitle the
Petitioner to relief, we conclude that the
post-conviction court did not abuse its discretion in
denying the Petitioner's motion to reopen. The
application for permission to appeal is therefore
DENIED. Because it appears that the Petitioner is
indigent, costs associated with this action are hereby
taxed to the State.

contained within the same first degree murder statute," and
both are eligible for the death penalty. State v. Telvin Toles, No.
W2018-01175-CCA-R3-CD, 2019 WL 2167835, at *9 (Tenn.
Crim. App. May 17, 2019), perm. app. denied (Tenn. Sept. 20,
2019).

7a
J. ROSS DYER, JUDGE
JOHN EVERETT WILLIAMS,
PRESIDING JUDGE
CAMILLE R. MCMULLEN, JUDGE

8a
APPENDIX B − ORDER OF THE CRIMINAL
COURT OF TENNESSEE FOR THE THIRTIETH
JUDICIAL DISTRICT, AT MEMPHIS, FILED
JUNE 5, 2020
IN THE CRIMINAL COURT OF TENNESSEE
FOR THE THIRTIETH JUDICIAL DISTRICT,
AT MEMPHIS
DIVISION 10
PRESTON CARTER
Now known as AKIL JAHI, Petitioner
v.
STATE OF TENNESSEE, Respondent.
No. 93-09760 and 93-09761 (trial) P-28413
(post-conviction)
Death Penalty Case Post-Conviction
Motion to Reopen
ORDER DENYING MOTION TO REOPEN
POST-CONVICTION PETITION

I. Introduction
This matter is before this Court on Petitioner's May 10, 2019, motion to reopen his
petition for post-conviction relief Petitioner, Akil
Jahi (formerly known as Preston Carter), by and
through counsel, has filed this motion to reopen
pursuant to Tenn. Code Ann. § 40-30-117(a)(1)
claiming he is entitled to relief based upon a new

9a

rule of law as announced in McCoy v. Louisiana,
138 S. Ct. 1500 (2018). After reviewing the
motion, the State's response, the further response
by Petitioner, 2 and the relevant authorities, for
the reasons stated within this order, Petitioner's
Motion to Reopen is hereby DENIED.
II. Procedural History 3
A. Trial
In 1995, Petitioner pled guilty to two counts of
felony murder. A Shelby County jury sentenced
Petitioner to death on both counts. On direct
appeal, the Tennessee Supreme Court affirmed
Petitioner's convictions but remanded the case for
a new sentencing hearing. State v. Carter, 988
S.W.2d 145 (Tenn. 1999). Following the new
sentencing hearing, the Petitioner was again
sentenced to death. This time, the Tennessee
Supreme Court affirmed the death sentences on
direct appeal. State v. Carter, 111 S.W.3d 895
(Tenn. 2003).
The State filed its response to Petitioner's motion May 28,
2019. Counsel for Petitioner filed a reply to the State's response
on June 10, 2019.
2

The Hon. Jon Kerry Blackwood, at the time a Judge of the
Twenty-Fifth Judicial District, presided over Petitioner's trial
and resentencing hearing by designation. Petitioner's
post-conviction case was transferred to Division Ten of Criminal
Court. Judge James Beasley, Jr., presided over Petitioner's
post-conviction proceedings and ruled on the two earlier motions
to reopen. Judge Beasley retired in 2017.

3

10a

B. Post-Conviction
Petitioner filed a timely petition for
post-conviction relief. Following a hearing, the
post-conviction court denied relief. The Court of
Criminal Appeals affirmed the post-conviction
court's ruling. Akil Jahi a.k.a. Preston Carter v.
State, No. W2011-02669-CCA-R3-PD (Tenn. Crim.
App. Mar. 13, 2014). The Tennessee Supreme Court
subsequently denied Petitioner's application for
permission to appeal.
Petitioner first sought to reopen his
post-conviction proceedings based on the United
States Supreme Court's ruling in Hall v. Florida,
572 U.S. 701 (2014). The post-conviction court
denied the motion by written order filed October 24,
2016. The Court of Criminal Appeals dismissed
Petitioner's application for permission to appeal
based on procedural deficiencies. Akil Jahi, aka
Preston Carter v. State, No. W2016-02201CCA-R3-PD (Tenn. Crim. App. Aug. 1, 2017) (order
dismissing appeal).
In August 2017, Petitioner again sought to
reopen his post-conviction proceedings, this time
based on Moore v. Texas, 137 S. Ct. 1039 (2017). On
November 28, 2017, the post-conviction court
denied the motion to reopen. The Court of Criminal
Appeals denied permission to appeal. Akil Jahi
AKA Preston Carter v. State, No. W2017-02527CCA-R28-PD (Tenn. Crim. App. April 24, 2018).
The Tennessee Supreme Court denied Petitioner's
application for permission to appeal.

11a

C. Federal Habeas Corpus Proceedings
After the denial of his state post-conviction
proceedings, Mr. Jahi filed a timely petition for
writ of habeas corpus in the United States District
Court for the Western District of Tennessee. Mr.
Jahi's federal case has been stayed pending the
resolution of this motion to reopen. See Akil Jahi
aka Preston Carter v. Tony Mays, Warden, No.
2:14-cd-02791, "Order for Continued Stay of
Habeas Proceedings" (W.D. Tenn. July 15, 2019).
III. Applicable Standards: Motions to
Reopen
The Tennessee Supreme Court has summarized the statutes governing motions to reopen:
Under the provisions of the Post-Conviction
Procedure Act, a petitioner "must petition for
post-conviction relief . . . within one (1) year of the
final action of the highest state appellate court to
which an appeal is taken . . . ." Tenn. Code Ann.
§ 40-30-202(a). Moreover, the Act "contemplates
the filing of only one (1) petition for
post-conviction relief" Tenn. Code Ann.
§ 40-30-202(c). After a post-conviction proceeding
has been completed and relief has been denied,
. . . a petitioner may move to reopen only "under
the limited circumstances set out in 40-30-217."
Id. These limited circumstances include the following:
(1) The claim in the motion is based upon a
final ruling of an appellate court establishing a

12a
constitutional right that was not recognized as
existing at the time of trial, if retrospective
application of that right is required. Such motion must be filed within one (1) year of the
ruling of the highest state appellate court or
the United States Supreme Court establishing
a constitutional right that was not recognized
as existing at the time of trial; [and]

....
(4) It appears that the facts underlying the
claim, if true, would establish by clear and
convincing evidence that the petitioner is entitled to have the conviction set aside or the
sentence reduced.
Tenn. Code Ann. § 40-30-217(a)(1) [and] (4) [now
Tenn. Code Ann. § 40-30-117(a)(1) and (4)].
Harris v. State, 102 S.W.3d 587, 590-91 (Tenn. 2003)
(alterations added). McCoy was decided May 14, 2018,
so Petitioner's motion to reopen is timely.
A motion to reopen "shall be denied unless the
factual allegations, if true, meet the requirements of
[Tenn. Code Ann. § 40-30-117](a)." Tenn. Code Ann.
§ 40-30-117(b) (emphasis added).
IV. Petitioner's Claims Under McCoy
Regarding whether McCoy constitutes a new
rule of constitutional law that must be applied
retroactively, counsel for Mr. Jahi states,
Mr. Jahi is entitled to reopen his
post-conviction proceedings "within one (1) year of

13a
the ruling of the . . . United States supreme court
establishing a constitutional right that was not
recognized as existing at the time of trial" as long
as "retrospective application of that right is required." Tenn. Code Ann. § 40-30117(a)(1). Under
Tennessee law, a holding establishes a new rule of
constitutional law entitled to retrospective application if the result is not dictated by precedent
existing at the time the petitioner's conviction
became final and application of the rule was
susceptible to debate among reasonable minds.
Tenn. Code Ann. § 4030-122. Mr. Jahi's motion to
reopen his post-conviction proceedings on the
basis of new constitutional rights recognized by
the U.S. Supreme Court in McCoy v. Louisiana,
138 S. Ct. 1500 (2018), satisfies that standard.
Less than a year ago, on May 14, 2018, the
U.S. Supreme Court's announced in McCoy that
depriving a defendant of the right to make
"fundamental choices about his own defense" and
"to decide on the objective of his defense" is a
"structural" error in "violation of a defendant's
Sixth Amendment-secured autonomy." McCoy,
138 S. Ct. at 1506, 1511. Prior to McCoy, the U.S.
Supreme Court had ruled that a defendant did
not have such a right-at least when the defendant remained silent and did not object after
conference with defense counsel. Florida v.
Nixon, 543 U.S. 175, 181 (2004). Three dissenters observed that the majority had announced a
"newly discovered fundamental right" and a
"newly discovered constitutional right." McCoy,
138 S. Ct. at 1512, 1518 (Alito, J., dissenting).
Clearly, McCoy was not dictated by prior
precedent, and reasonable minds (including those

14a
of three dissenting Supreme Court justices) debated its conclusion. Insofar as Mr. Jahi's sentencing hearing violated the rules articulated in
McCoy, he is entitled to reopen his post-conviction
proceedings.
[. . . .]
The new rule of McCoy v. Louisiana establishes that a criminal defendant possesses a
Sixth Amendment secured right of autonomy,
which gives the defendant-not defense counsel-the right to set the objectives of his defense.
McCoy, 138 S. Ct. at 1505-10. To gain the assistance of counsel-something an intellectually
disabled defendant such as Akil Jahi surely
needed-a defendant "need not surrender control
entirely to counsel. For the Sixth Amendment . . .
speaks of the 'assistance' of counsel, and an
assistant, however expert, is still an assistant."
Id. at 1508 (internal citations deleted). "With
individual liberty-and, in capital cases, life-at
stake, it is the defendant's prerogative, not
counsel's, to decide on the objective of his defense." Id. at 1505; see Hashimi v. United States,
No. 18.5184, 139 S. Ct. 377, 377 (2018) (granting
certiorari, vacating, and remanding a case in
light of McCoy where counsel conceded guilt on
two counts during closing argument); see also
(Ex. 12, Hashimi Petition for Writ of Certiorari).
McCoy makes clear that a component of a
defendant's autonomy is the right to be consulted
with prior to substantive decisions being made.
"Counsel, in any case, must still develop a trial
strategy and discuss it with her client." McCoy,
138 S. Ct. at 1509. If "after consultation," a client

15a
disagrees with his lawyer's objectives, the lawyer
is not free to "override" the client. Id. A lawyer
cannot "negate [the defendant's] autonomy by
overriding [the defendant's] desired defense objective." Id. A defendant's silence will only permit
a lawyer to make unilateral decisions, if the
lawyer first discusses those decisions and the trial
strategy with the defendant. Id. 4
Petitioner's Motion to Reopen, at 16-18 (alterations added).
V. Review of Petitioner's Claims
The Court has reviewed Mr. Jahi's claims and
concludes they should be denied. This case is
similar to that of another Tennessee death row
inmate whose McCoy claim was rejected by the
Court of Criminal Appeals. Davidson County
death row inmate Oscar Franklin Smith filed a
McCoy-based motion to reopen his post-conviction
proceedings, claiming his trial attorney conceded
Mr. Smith's guilt during sentencing-phase closing
argument. During the guilt-innocence phase, Mr.
Smith's attorneys presented an alibi defense. The
post-conviction court denied the motion to reopen.
On appeal, the Court of Criminal Appeals affirmed
the post-conviction court's ruling, concluding the
issue of whether McCoy announced a new rule of
law need not be addressed because the McCoy
holding was not applicable to Mr. Smith's case:

4

Petitioner's "Motion to Reopen" at 16-18 (alterations added)

16a
This Court need not decide whether McCoy
announced a new rule of constitutional law requiring retroactive application because the
holding in that case is inapplicable to the facts of
the Petitioner's case. In McCoy, the Supreme
Court held that an attorney cannot admit guilt
over a defendant's objection during the guilt
phase of a capital trial. Id. at 1505. "When a
client expressly asserts that the objective of 'his
defense' is to maintain innocence of the charged
criminal acts, his lawyer must abide by that
objective and may not override it by conceding
guilt." Id. at 1509 (emphasis in original). It is
clear from a reading of McCoy that its holding is
limited to the theory of defense during the guilt
phase of a capital trial: "With individual liberty
— and, in capital cases, life — at stake, it is the
defendant's prerogative, not counsel's, to decide
on the objective of his defense: to admit guilt in
the hope of gaining mercy at the sentencing stage,
or to maintain his innocence, leaving it to the
State to prove his guilt beyond a reasonable
doubt." Id. at 1505 (emphasis added). The Court
emphasized that an attorney "may not admit her
client's guilt of a charged crime over the client's
intransigent objection to that admission." Id. at
1510 (Emphasis added).

The Petitioner contends his attorney repeatedly conceded the Petitioner's guilt during
closing argument in the sentencing stage of his
capital trial. Indeed, the Defendant presented an
alibi defense during the guilt phase of his trial
which, by their verdict, the jury ultimately rejected. Smith, 868 S.W.2d at 568; Smith, 1998
WL 345353 at *6. His attorneys did not concede
the Petitioner's guilt during the guilt phase.

17a

Thus, the holding in McCoy is inapplicable to the
facts of this case.
Accordingly, we conclude that the trial court
did not abuse its discretion in denying the Petitioner's motion to reopen. The application for
permission to appeal is, therefore, denied.
Oscar Smith v. State, No. M2019-01662CCA-R28-PD, at 2 (Tenn. Crim. App. Oct. 28, 2019),
perm. app. denied (Tenn. Jan. 15, 2020).
Similarly , this case does not involve attorneys
who asserted their client's guilt during the
guilt-innocence phase of trial over the client's
wishes. Mr. Jahi pleaded guilty, so there can be no
contention that Mr. Jahi wished to assert his
innocence only to have counsel assert his guilt
during the first phase of trial. Because the Court
of Criminal Appeals has concluded McCoy applies
only to the guilt-innocence phase of a criminal
trial, McCoy is inapplicable to the Petitioner's
case, in which there was no guilt-innocence phase
of trial. McCoy does not entitle Mr. Jahi to relief

In light of the Court of Criminal Appeals'
conclusion that McCoy is inapplicable to a capital
sentencing hearing, this Court has no choice but
to treat the claims presented in Mr. Jahi's motion
to reopen as a second post-conviction claim of
ineffective assistance of counsel. Mr. Jahi has
already had an opportunity to litigate his
ineffective assistance claim in his original
post-conviction proceedings, and Tennessee
statutes prohibit a second or successive

18a

post-conviction petition. See Tenn. Code Ann. §
40-30-102(c). This Court is barred from considering Mr. Jahi's claims and therefore must
dismiss his motion to reopen.
VI. Conclusion
For the reasons stated above, Mr. Jahi's motion
to reopen his petition for post-conviction relief is
DENIED.
In light of the stay in federal court, the
Criminal Court Clerk is instructed to forward a
copy of this Order to counsel for the Petitioner and
the State in the federal court proceedings so as to
keep those attorneys informed of the progress of
this matter.
IT IS SO ORDERED this the 5th day of June,
2020.
Jennifer Johnson Mitchell, Judge
Criminal Court, Division 10
30th Judicial District, at Memphis

19a
APPENDIX C − ORDER OF THE SUPREME
COURT OF TENNESSEE AT JACKSON, FILED
JANUARY 14, 2021
AKIL JAHI AKA PRESTON CARTER v. STATE OF
TENNESSEE
Criminal Court for Shelby County
Nos. 93-09760, 93-09761, P-28413
No. W2020-00944-SC-R11-PD
ORDER

Upon consideration of the application for permission to appeal of Akil Jahi and the record before
us, the application is denied.
PER CURIAM

20a
APPENDIX D − MOTION TO REOPEN
PETITION FOR POST-CONVICTION RELIEF,
FILED MAY 10, 2019

“The state is asking you to order the death of Preston
Carter.
Does he deserve to die? Probably.”
(Argument of Defense Counsel, Coleman Garrett;
Resentencing, Ex. 6, Trans. Sentencing Vol. 7, p. 472).
I.

Introduction

On May 14, 2018, the United States Supreme
Court resolved a previously unsettled question of
constitutional criminal law, holding that a defendant
may insist that defense counsel refrain from
admitting guilt—even when counsel believes that a
concession will help avoid a death sentence. McCoy v.
Louisiana, 138 S. Ct. 1500, 1505 (2018). But McCoy
went further than simply answering that question, it
also established that under the Sixth Amendment a
criminal defendant has autonomy “to decide the
McCoy
objective of the defense.” Id. at 1508.
established a new rule of law not dictated by prior
precedent that was susceptible to—and the subject
of—debate among reasonable minds, including three
sitting U.S. Supreme Court Justices. McCoy, 138 S.
Ct. at 1512 (Alito, J. dissenting); see Tenn. Code Ann.
§ 40-30-122.
Under this new rule of law, Mr. Jahi is entitled to
a new sentencing hearing, where he is represented by
defense counsel who takes the time to meet with him,
consult with him, and determine his objectives. He is

21a
entitled to a new sentencing hearing, where he is
“assisted” by counsel who will advise Mr. Jahi while
still allowing Mr. Jahi to define the objectives of the
hearing, beginning, most fundamentally, with
whether the jury should be asked to spare his life or
told that he probably deserves to die. In this case,
client-driven decisions would also reverse previous
decisions over whether to accept the benefits that
accompanied the plea entered or recast the conviction
as a more culpable crime, whether to concede or
contest aggravating circumstances, whether to
advance or waive valid mitigating circumstances, and
how to explain to the jury who Akil Jahi is now.
Mr. Jahi was denied his constitutionally protected autonomy to determine these objectives in his
capital resentencing by an attorney who declined to
speak with him before making fundamental decisions
about Mr. Jahi’s defense against Mr. Jahi’s wishes.
Contrary to his objectives, defense counsel agreed
that Mr. Jahi deserved to die. Against his wishes,
defense counsel told the jury that Mr. Jahi was guilty
of a cold-blooded, premeditated murder—which was
false, he had pled guilty to a reckless killing during a
burglary.
Against his desires, defense counsel
conceded both aggravators advanced by the prosecution, while waiving the most obvious and compelling
mitigator—one that Mr. Jahi testified to—of
substantial impairment due to intoxication. Contrary
to his dignity, defense counsel refused to use his legal
name, misreported the reasons behind his name
change—including by assuming that it reflected a
conversion to Islam—and mocked “Akil Jahi” in front
of the jury that ultimately agreed with defense

22a
counsel’s statement that Mr. Jahi probably deserved
to die.
Under the unusual circumstances of this case and
the new, retroactively applicable rule of constitutional criminal law announced in McCoy, Mr. Jahi is
entitled pursuant to sections 40-30-117 and 40-30-122
of the Tennessee Code Annotated to reopen his
petition for post-conviction relief.
II. Procedural History
Akil Jahi pled guilty to two counts of reckless
killing during the perpetration of an aggravated
burglary, felony murder, in Shelby County Case Nos.
93-09760 and 93-09761. The Shelby County Court
originally sentenced Mr. Jahi to death on January 25,
1995. On direct appeal, the Tennessee Court of
Criminal Appeals affirmed the convictions and death
sentences.
See
State
v.
Carter,
No.
02-C-01-9601-CR00002, 1997 WL 220918 (Tenn.
Crim. App. May 5, 1997). 5 The Tennessee Supreme
Court vacated Mr. Jahi’s death sentences and
remanded the case for a new sentencing hearing, with
proper verdict forms. State v. Carter, 988 S.W.2d 145
(Tenn. 1999).
In February of 2000, Mr. Jahi was again sentenced to death for both convictions. Mr. Jahi’s
motion for a new trial was denied. State v. Carter,
No. 93-09760, 61 (Aug. 31, 2000). On appeal, the
Court of Criminal Appeals affirmed the death
Akil Jahi legally changed his name from Preston
Carter in 1996.
5

23a
sentences.
State
v.
Carter,
No.
W2000-02204-CCA-R3-DD, 2002 WL 1482783 (Tenn.
Crim. App. Feb. 8, 2002). The Tennessee Supreme
Court affirmed the death sentences. State v. Carter,
111 S.W.3d 895 (Tenn. 2003).
Mr. Jahi filed a consolidated Petition for
Post-Conviction relief on December 7, 2010. He was
subsequently denied relief by the post-conviction
court. Mr. Jahi appealed the trial court’s decision,
and the Tennessee Court of Criminal appeals denied
Mr. Jahi any post-conviction relief. Jahi v. State, No.
W2011-02669-CCA-R3-PD, 2014 WL 1004502 (Tenn.
Crim. App. March 13, 2014).
III. Statement of Relevant Facts
1. On January 24, 1995, Akil Jahi (then known
as Preston Carter) entered a plea of guilty to two
counts of first degree felony murder for the commission of “a reckless killing of another” during the
perpetration of an aggravated burglary. (Ex. 1,
Trans. Trial Vol. II, pp. 188, 194, 196–97). By
agreement with the State of Tennessee, he did not
plead guilty to first degree premeditated murder. (Id.
at pp. 188–89).
2. Following his guilty plea and an abbreviated
sentencing hearing, Mr. Jahi was sentenced to death,
however the Tennessee Court of Criminal Appeals,
reversed and remanded for a new sentencing hearing
using correct verdict forms. State v. Carter, 988
S.W.2d 145, 153 (Tenn. Crim. App. 1999).
3. On March 16, 1999, Coleman Garrett was
appointed as lead counsel for Akil Jahi and given the

24a
responsibility of conducting his new sentencing
hearing. (Ex. 2, Trans. PCR Hrg. Garrett Vol. 23
(hand-corrected from Vol. 22) p. 91(hand-dated Dec.
14, 2010)). That new sentencing commenced on
February 14, 2000. (Id.).
4. Co-counsel, Howard Manis was also appointed, however, Mr. Garrett considered himself to
have final decision-making authority. (Id. at p. 169).
At resentencing, Mr. Garrett conducted opening
statement, the examination of Mr. Jahi, and closing
argument. (Ex. 3, Trans. Sentencing Vol. 4 pp.
iv–viii).
5. Coleman Garrett spoke to Mr. Jahi for the
first time, for approximately 15 minutes via telephone
on April 19, 1999—one month after his appointment.
(Ex. 2, Trans. PCR Hrg. Garrett p. 97; Ex. 7, Garrett
Billing Records). On April 23, 1999, Garrett and his
co-counsel, Howard Manis, and an investigator, met
with Mr. Jahi in conjunction with a 30 minute court
appearance, and this meeting lasted for a period of
less than three hours. (Ex. 2, Trans. PCR Hrg.
Garrett p. 97; Ex. 7, Garrett Billing Records; Ex. 10,
Jahi Affidavit, ¶¶ 2, 4). Mr. Garrett next met with
Mr. Jahi, seven months later, on December 21, 1999
at the Riverbend prison in Nashville, Tennessee; this
visit, including travel to and from Memphis, was
billed at 10 hours. (Ex. 2, Trans. PCR Hrg. Garrett p.
98; Ex. 7, Garrett Billing Records; Ex. 10, Jahi
Affidavit, ¶ 4).
6. Mr. Garrett has no recollection of any other
meetings with Mr. Jahi prior to trial, though entries
for trial preparation in February of 2000, in the days

25a
immediately before resentencing, “could have been
with client.” (Ex. 2, Trans. PCR Hrg. Garrett pp.
98–99; Ex. 7, Garrett Billing Records). Mr. Garrett
did not identify any other times he “could have” met
with Mr. Jahi in preparation for trial, between his
March, 1999 appointment, and February of 2000.
(Id.). Mr. Jahi has no memory of any other meetings,
outside of the two identified in Garrett’s billing
records. (Ex. 10, Jahi Affidavit, ¶ 4).
7. When Mr. Garrett met with Mr. Jahi he did
not discuss his strategy and did not seek Mr. Jahi’s
opinion on any decisions he might make. (Id. at ¶¶
4–20). Mr. Garrett did not ask Mr. Jahi what his
objectives for the sentencing hearing were. (Id. at ¶¶
4–6, 8–10, 12–16, 18–20). Mr. Garrett acted as if he
had exclusive authority to define the objectives of the
representation, and he did not see any need to consult
with Mr. Jahi for his input. (Id. at ¶¶ 19-20).
8. At resentencing, repeatedly, without Mr.
Jahi’s approval, and contrary to Mr. Jahi’s guilty plea
to a “reckless killing,” Mr. Garrett described his
conduct as premeditated, deliberate, planned and/or
in cold-blood. Had Mr. Jahi been given the opportunity to decide on this strategy or to articulate the
objectives of his defense, he would have insisted that
his plea of guilty to a “reckless killing” be honored,
and he would have demanded that Mr. Garrett not
tell the jury that he was guilty of a more morally
culpable form of homicide. (Id. at ¶¶ 11–13). It was
not his objective that he be sentenced for premeditated murder. (Id.).

26a
9. Some specific examples of Mr. Garrett’s unilateral decision to portray Mr. Jahi’s conduct as
intentional and cold-blooded (as opposed to reckless
and in a state of intoxicated panic) include:
a. Mr. Garrett submitted a jury questionnaire to prospective jurors that three times described the murders as premeditated, while
making no reference to “reckless” killing or felony
murder. (Ex. 11, Jury Questionnaire, Q. 42,
45–46).
b. During voir dire, Mr. Garrett told the jury
that Mr. Jahi had “killed two people in cold
blood.” (Ex. 3, Trans. Sentencing Vol. 4 p. 56).
Later, he expanded on this, and claimed (falsely)
that Mr. Jahi had pled guilty to premeditated
murder. (Id. at p. 96). The prosecutor corrected
this misstatement, and said, “Excuse me for
interrupting, but I think he pled guilty to murder
during the perpetration of a felony.” (Id. at p. 97).
c. Nonetheless, Mr. Garrett and co-counsel,
Mr. Manis, continued to describe Mr. Jahi’s conduct as premeditated throughout the remainder
of voir dire, consistently questioning the jurors
about their views on premeditated murder, while
never explaining (or acknowledging) that Mr.
Jahi had pled guilty to a reckless killing in the
perpetration of a felony. (Id. at pp. 99–100,
103–04, 106, 111, 113, 125, 146; Ex. 4, Sentencing
Vol. 5, p. 167).
d. In closing argument, Mr. Garrett again
claimed that Mr. Jahi had “cold-bloodedly” killed

27a
the victims. (Ex. 6, Trans. Sentencing Vol. 7, p.
472).
e. Later, in closing, Mr. Garrett claimed
that Mr. Jahi had changed his name from Preston
Carter, because he didn’t want to be “identified as
that person that committed that heinous, atrocious, cruel act of cold-blooded murder.” (Id. at p.
478).
f. Mr. Garrett told the jury during closing
that “Preston Carter knew what he was doing.”
(Id. at p. 480).
10. At resentencing, repeatedly, without Mr.
Jahi’s approval, Mr. Garrett conceded that the legal
aggravating circumstance of “heinous, atrocious and
cruel” was applicable. Mr. Garrett had not explained
the elements of this aggravating factor to Mr. Jahi,
had he done so, and had he explained that it required
proof of “torture,” Mr. Jahi would have objected to
this concession. (Ex. 10, Jahi Affidavit, ¶¶7–8). Mr.
Jahi would not have willingly agreed to concede such
a crucial point. (Id.).
11. It was not Mr. Jahi’s objective to unnecessarily concede aggravating factors that would justify
his execution. (Id.). However, as Mr. Garrett never
talked to Mr. Jahi about such things, Mr. Jahi was
denied any opportunity to object to this concession.
(Id. at ¶¶ 7–8, 19–20).
12. Some specific examples of Mr. Garrett’s unilateral decision to concede that the aggravating
circumstance, “heinous, atrocious and cruel” applied
include:

28a
a. In voir dire, Mr. Garrett told the jury that
Mr. Jahi had “engaged in some heinous conduct”
and “did this, heinous act—acts.” (Ex. 3, Trans.
Sentencing Vol. 4 pp. 67, 74).
b. In opening statement, Mr. Garrett conceded the murders were “heinous, atrocious and
cruel.” (Ex. 4, Sentencing Vol. 5 p. 199).
c. In opening statement, Mr. Garrett conceded that the acts described by the prosecutor
were true. (Id. at p. 200). The acts vividly described by the prosecutor involved mental torture
that, the prosecutor explained, rose to the level of
torture sufficient to be “heinous, atrocious and
cruel.” (Id. at p. 197–98).
d. In closing, Mr. Garrett submitted that
because the murder was cold-blooded, it must
have been heinous, atrocious and cruel. (Ex. 6,
Trans. Sentencing Vol. 7, p. 472).
e. In closing, Mr. Garrett claimed that Mr.
Jahi had changed his name from Preston Carter,
because he didn’t want to be “identified as that
person that committed that heinous, atrocious,
cruel act of cold-blooded murder.” (Id. at p. 478).
13. At resentencing, Mr. Garrett conceded that
Mr. Jahi had been convicted of a prior felony crime of
violence—this was the only other aggravating factor
advanced by the prosecution—thus he conceded both
aggravators. (Ex. 4, Sentencing Vol. 5 p. 197). In
closing he stated: “The state is relying upon two
aggravating factors that have been articulated by Mr.
Henderson. I can’t take issue with the existence of

29a
those aggravating factors.” (Ex. 6, Trans. Sentencing
Vol. 7, p. 472). Mr. Garrett had not discussed with
Mr. Jahi any efforts they could make to diminish the
significance of the second aggravating factor
regarding a prior felony crime of violence. (Ex. 10,
Jahi Affidavit, ¶¶ 7–8).
14. Mr. Garrett decided not to present any proof
about what had happened during Mr. Jahi’s prior
felony offense—where he (1) laid a shotgun on the
counter (did not point it at anyone), (2) asked for
candy for his children’s lunch, and (3) rebuffed his
co-defendant’s attempt to take the clerk elsewhere.
(Ex. 2, Trans. PCR Hrg. Garrett p. 157).
15. While, Mr. Jahi is not a lawyer and could not
have directed Mr. Garrett as to how to diminish the
significance of the second aggravating factor—he
knew that he did not want to unnecessarily concede
facts that could lead to his execution. (Ex. 10, Jahi
Affidavit, ¶¶ 7–8, 14). Mr. Garrett’s decision not to
attack the second aggravating factor (and to concede
both factors) was not consistent with Mr. Jahi’s
objectives, and not one he would have agreed to, if he
had been consulted. (Id.).
16. At resentencing, repeatedly, without Mr.
Jahi’s approval, Mr. Garrett conceded that the
following statutory mitigating factor did not apply:
“The capacity of the defendant to appreciate the
wrongfulness of [his] conduct or to conform [his]
conduct to the requirements of the law was substantially impaired as a result of mental disease or defect
or intoxication, which was insufficient to establish a

30a
defense to the crime but which substantially affected
his judgment.” Tenn. Code Ann. § 39-13-204.
17. Mr. Jahi strongly believed that he would not
have committed the crimes, but for his extreme
intoxication. (Ex. 10, Jahi Affidavit, ¶ 9). It was his
objective to advance this ground for mitigation
(though, of course, he did not know that it was a
statutory factor). (Id.).
18. Mr. Garrett never discussed with Mr. Jahi his
intent to concede that this obviously applicable
mitigating factor did not apply, and he did not give
Mr. Jahi any opportunity to object to his unilateral
decision to waive this factor. (Id.). Mr. Jahi did not
approve of Mr. Garrett’s decision to waive this factor.
(Id.).
Some specific examples of Mr. Garrett’s
strategic decision to waive the “substantially
impaired” mitigating factor, include:
a. In opening statement, Mr. Garrett only
articulated two mitigating factors: (1) Mr. Jahi
could be of service in the future, and (2) there was
no likelihood of him committing similar crimes in
the future. (Ex. 4, Sentencing Vol. 5 pp. 199–200).
b. In opening, Mr. Garrett said that the fact
that Mr. Jahi was “droned by drugs and alcohol”
and was a “raving maniac” was not an excuse for
his conduct. (Id. at p. 200).
c. In closing, Mr. Garrett firmly disavowed
the applicability of the intoxication statutory
mitigator:

31a
Could he have done it if he hadn’t been on
drugs and full of alcohol? Does it make a
difference? It doesn’t make a difference in
terms of an excuse. Is it a factor to take into
consideration? It’s not a factor to take into

consideration in terms of why he did this.

(Ex. 6, Trans. Sentencing Vol. 7, pp. 474–75)
(emphasis added).
19. Coleman Garrett conceded that Akil Jahi
probably deserved to die. Mr. Jahi does not, did not
and would not agree that he probably deserved to be
executed; had he been consulted or given any chance
to have his voice heard, he would have disagreed with
this decision. (Ex. 10, Jahi Affidavit, ¶¶ 14–15).
Examples of this remarkable argument are:
a. In closing, Mr. Garrett stated: “The state
is asking you to order the death of Preston Carter.
Does he deserve to die? Probably.” (Ex. 6, Trans.
Sentencing Vol. 7, p. 472).
b. Later Mr. Garrett observed, “It’s easy to
say kill him.” (Id. at p. 473).
20. Mr. Garrett conceded that nothing in Mr.
Jahi’s background, “prior to 1991” was relevant as a
mitigating factor, arguing that:
There was no proof that Mr. Carter had a bad
childhood—no proof of him being neglected—no
proof of him being abused—no proof of anything
mitigating in Mr. Carter’s life up until 1991 or
thereabouts. He was drugging and drinking and

32a
hanging out with his friends and mad with the
world—mad with the world about what?
(Id. at, p. 474).
21. Mr. Garrett did not discuss his intent not to
investigate, develop, argue or submit any mitigation
related to Mr. Jahi’s childhood with his client. (Ex. 10,
Jahi Affidavit, ¶¶ 9–10, 20). During post-conviction
proceedings, Mr. Garrett testified that he was
unaware of anything “horrendous” enough to present
in mitigation and accepted the prosecutor’s suggestion that maybe Mr. Jahi had lost a cousin. (Ex. 9,
Trans. PCR Hrg. Garrett Vol. 24 (hand-corrected from
Vol. 23) pp. 27–28)). Having only met with Mr. Jahi a
couple of times, Mr. Garrett did not know that Mr.
Jahi had lost a brother in a terrifying train accident,
and that this brother had been his protector and best
friend.
22. Similarly, Mr. Garrett was unaware that Mr.
Jahi was the primary caregiver for his older sister,
who had sickle cell anemia and was often in
excruciating pain. (Ex. 2, Trans. PCR Hrg. Garrett p.
149–151).
23. Mr. Jahi, had he been given any opportunity
to make the decisions about the objectives of his
defense, would have asked that Mr. Garrett present
all possible mitigation proof. (Ex. 10, Jahi Affidavit, ¶
10). Mr. Jahi would not have willingly chosen to
waive a powerful mitigating factor that could have
saved his life. (Id.). Mr. Jahi would not have chosen
that the objective of his defense was to rely, solely, on
post-crime rehabilitation. (Id.).

33a
24. Mr. Garrett without consultation with Mr.
Jahi, disparaged and mischaracterized his decision to
change his name from Preston Carter; claiming that
he made the change because he didn’t want to be
“identified as that person that committed that
heinous, atrocious, cruel act of cold-blooded murder.”
(Ex. 6, Trans. Sentencing Vol. 7, p. 478). He went on
and described what he imagined was Mr. Jahi’s
thinking:
I’m changing my name to Akil. I don’t know
whether it works for him or not because when you
wake in the morning you’re still Preston Carter. I
guess you have to try to get away from yourself,
though.
I don’t want to even suggest any comparison but
to see the only reason I would suggest to you that
you would go through these kinds of changes of
trying to change your name and realign yourself
religiously and what have you is because there is
something that’s haunting you.
(Id. at p. 478).
25. Mr. Jahi’s change of name did not represent
any religious change—at the time of resentencing he
was a Baptist, same as he had been when called
Preston Carter. However, the name change was very
significant to Mr. Jahi, as Akil meant “one who uses
reason” and Jahi means “dignity.” (Ex. 10, Jahi
Affidavit, ¶ 17). Mr. Garrett did not consult with Mr.
Jahi to learn these things, or to allow him to explain
the significance of his name. (Id.) It was contrary to
Mr. Jahi’s objectives to claim that he had changed
religion, or to denigrate the significance of his name.

34a
(Id. at ¶¶ 17, 18). It was contrary to some of Mr.
Jahi’s most deeply-held and personal beliefs to call
him Preston Carter, when that was not who he was.
(Id.).
26. The decisions described above were made by
Mr. Garrett as lead counsel without consultation with
Mr. Jahi. Defense counsel treated the decision not to
challenge the prosecution’s version of the facts
(including that the killings were heinous, atrocious
and cruel, as they involved torture) as a “trial
decision” made by the lead counsel lawyer. (Ex. 8,
Trans. PCR Hrg. Manis, Vol. 20 (hand-corrected from
Vol. 19) pp. 198–99)). Defense counsel made an
allegedly “tactical decision” not to address alcohol and
drug use as a mitigator, and to “go with what we
believed was a stronger position at the time in
showing his improvement since being incarcerated”.
(Id. at pp. 210–211).
27. Mr. Garrett believed that the only mitigating
factor that was worth advancing was that “the person
who came into prison was not the same person who
the jury was looking at in the courtroom.” (Ex. 9,
Trans. PCR Hrg. Garrett, p. 14). He did not believe
that expert testimony regarding the effect of the loss
of his brother “would have made a difference.” (Id. at
p. 52). Mr. Garrett never discussed with Mr. Jahi his
belief that most grounds for mitigation—including
the statutory factor regarding substantial impairment—would not work. (Ex. 10, Jahi Affidavit, ¶¶
9–10, 19–20). Mr. Jahi was never given a chance by
Mr. Garrett to object to this decision waive most
possible mitigation. (Id.). It was not Mr. Jahi’s
objective to waive possible mitigation. (Id.).

35a
28. While Mr. Jahi did not agree to the various
decisions made by Coleman Garrett, or the objectives
he advanced, the prosecution certainly found them
acceptable; at the start of their “rebuttal argument,”
they stated: “Ladies and gentlemen, I don’t really
have a lot to argue with Mr. Garrett about. He’s
doing a good job.” (Ex. 6, Trans. Sentencing Vol. 7, p.
482).
29. Akil Jahi is intellectually disabled—at the
time of his resentencing his tested I.Q. placed him in
the intellectually disabled range, and he had
profound deficits in adaptive behavior. Nonetheless,
he had sufficient intellectual functioning to know that
he wanted to live, and to know that he did not want to
unnecessarily concede facts that would support his
execution, and to know that he did not want to waive
relevant mitigation. He had sufficient intellectual
functioning to know that a “cold-blooded,” premeditated murder—which he did not commit—is more
likely to receive the death penalty, than a reckless
killing by an extremely intoxicated man.
30. At trial, Mr. Jahi sat behind counsel. He was
not spoken to, or consulted in any meaningful way
during the trial. (Ex. 10, Jahi Affidavit, ¶ 20). From
his perspective he was a mere passenger with no
control over the course of the trial. (Id.).
IV. Law and Argument
A. Tennessee Code Annotated § 40-30-117
grants Akil Jahi the right to reopen
post-conviction proceedings.

36a
Mr. Jahi is entitled to reopen his post-conviction
proceedings “within one (1) year of the ruling of the
. . . United States supreme court establishing a
constitutional right that was not recognized as
existing at the time of trial” as long as “retrospective
application of that right is required.” Tenn. Code
Ann. § 40-30-117(a)(1). Under Tennessee law, a
holding establishes a new rule of constitutional law
entitled to retrospective application if the result is not
dictated by precedent existing at the time the
petitioner’s conviction became final and application of
the rule was susceptible to debate among reasonable
minds. Tenn. Code Ann. § 40-30-122. Mr. Jahi’s
motion to reopen his post-conviction proceedings on
the basis of new constitutional rights recognized by
the U.S. Supreme Court in McCoy v. Louisiana, 138
S. Ct. 1500 (2018), satisfies that standard.
Less than a year ago, on May 14, 2018, the U.S.
Supreme Court’s announced in McCoy that depriving
a defendant of the right to make “fundamental
choices about his own defense” and “to decide on the
objective of his defense” is a “structural” error in
“violation of a defendant’s Sixth Amendment-secured
autonomy.” McCoy, 138 S. Ct. at 1506, 1511. Prior to
McCoy, the U.S. Supreme Court had ruled that a
defendant did not have such a right—at least when
the defendant remained silent and did not object after
conference with defense counsel. Florida v. Nixon,
543 U.S. 175, 181 (2004). Three dissenters observed
that the majority had announced a “newly discovered
fundamental right” and a “newly discovered
constitutional right.” McCoy, 138 S. Ct. at 1512, 1518
(Alito, J., dissenting).

37a
Clearly, McCoy was not dictated by prior precedent, and reasonable minds (including those of three
dissenting Supreme Court justices) debated its
conclusion. Insofar as Mr. Jahi’s sentencing hearing
violated the rules articulated in McCoy, he is entitled
to reopen his post-conviction proceedings.
B. Trial counsel violated McCoy and deprived
Mr. Jahi of the right to make fundamental
choices about his defense in no less than
five-ways.
The new rule of McCoy v. Louisiana establishes
that a criminal defendant possesses a Sixth Amendment secured right of autonomy, which gives the
defendant—not defense counsel—the right to set the
objectives of his defense. McCoy, 138 S. Ct. at
1505–10.
To gain the assistance of counsel—something an intellectually disabled defendant
such as Akil Jahi surely needed—a defendant “need
not surrender control entirely to counsel. For the
Sixth Amendment . . . speaks of the ‘assistance’ of
counsel, and an assistant, however expert, is still an
assistant.” Id. at 1508 (internal citations deleted).
“With individual liberty—and, in capital cases,
life—at stake, it is the defendant’s prerogative, not
counsel’s, to decide on the objective of his defense.”
Id. at 1505; see Hashimi v. United States, No.
18-5184, 139 S. Ct. 377, 377 (2018) (granting
certiorari, vacating, and remanding a case in light of
McCoy where counsel conceded guilt on two counts
during closing argument); see also (Ex. 12, Hashimi
Petition for Writ of Certiorari).

38a

McCoy makes clear that a component of a defendant’s autonomy is the right to be consulted with
prior to substantive decisions being made. “Counsel,
in any case, must still develop a trial strategy and
discuss it with her client.” McCoy, 138 S. Ct. at 1509.
If “after consultation,” a client disagrees with his
lawyer’s objectives, the lawyer is not free to “override”
Id. A lawyer cannot “negate [the
the client.
defendant’s] autonomy by overriding [the defendant’s] desired defense objective.” Id. A defendant’s
silence will only permit a lawyer to make unilateral
decisions, if the lawyer first discusses those decisions
and the trial strategy with the defendant. Id.
The claim being raised here is entirely distinct
from a claim of ineffective assistance of counsel under
Strickland v. Washington. While, some of the acts
and omissions of Coleman Garrett may be reviewed
(and should be reviewed in Federal Court) under that
rubric, the new rule of McCoy focuses on the
defendant’s right to set the objectives of his defense—not on the quality of counsel’s representation,
even when it is profoundly deficient.
As the statement of facts makes clear, defense
counsel only talked to Mr. Jahi three times, including
once by telephone, prior to commencement of the
resentencing. During those limited conversations,
counsel did not question Mr. Jahi to learn what his
objectives might be, nor did counsel explain to Mr.
Jahi his proposed strategies or the applicable law.
Based on this lack of communication, counsel made
the following decisions that overrode or conflicted
with Mr. Jahi’s objectives—without affording Mr.
Jahi any opportunity to object.

39a
1.

Defense counsel deprived Mr. Jahi of the
right to make the fundamental choice
over the fundamental goal in the sentencing hearing by telling the jury that
Mr. Jahi probably deserved to die.

Defense counsel told the jury that Mr. Jahi
probably deserved to be executed. (Ex. 6, Trans.
Sentencing Vol. 7, p. 472). Mr. Jahi did not agree
with this statement, and it was contrary to his
objective to live and to present himself to the jury as a
person who should not be executed. In a hearing
where a defendant has pleaded guilty and the jury’s
only task was to decide life or death, this unauthorized assertion—that Mr. Jahi’s own counsel thought
he probably deserved to die—violates Mr. Jahi’s right
to make fundamental choices about the goals of his
defense.
2.

Defense counsel overrode Mr. Jahi’s decision to plead and be sentenced only for
reckless felony murder by inviting the
jury to sentence him for premeditated
murder.

Defense counsel told the jury that Mr. Jahi was
guilty of a deliberate, planned, “cold-blooded”
premeditated murder after Mr. Jahi entered an
agreed plea of guilty to the lesser crime of reckless
felony murder. Counsel’s argument was contrary to
Mr. Jahi’s objective of being sentenced for a reckless
killing, while under the influence of an extreme
amount of alcohol and drugs. While Mr. Jahi is
intellectually disabled, he certainly was able to know
the profound moral difference between someone who

40a
kills two parents in front of their daughter with
premeditation and in cold-blood, and someone who
makes the worst mistake of his life in an intoxicated
panic. Counsel did not have Mr. Jahi’s permission to
increase the moral culpability of his crime and
abandon the benefits of pleading to a lesser offense.
Defense counsel did not have Mr. Jahi’s permission to
ask a jury to sentence him for a crime he had not
pleaded guilty to. Defense counsel overrode Mr.
Jahi’s guilty plea to reckless felony murder, and
converted it into a plea to a more aggravated crime,
premeditated murder.
3.

Defense counsel deprived Mr. Jahi of the
opportunity to contest aggravating factors regarding torture and the circumstances of his prior conviction.

Defense counsel conceded both aggravating factors, despite there being (1) a viable argument that
the deaths were not by torture, and thus the heinous,
atrocious and cruel aggravating factor did not apply,
and (2) a factual basis to minimize the significance of
Mr. Jahi’s prior felony, as it involved taking candy for
his children’s lunch. While intellectually disabled,
Mr. Jahi still possessed sufficient understanding to
know that he did not want to concede his own
eligibility for the death penalty, and did not want to
waive viable arguments, which would make a
sentence of death less likely. Defense counsel’s
concession of both aggravating factors was contrary to
Mr. Jahi’s objectives.

41a
4.

Defense counsel deprived Mr. Jahi of the
opportunity to demonstrate impairments
that satisfy a statutory mitigation factor.

Defense counsel waived the statutory mitigating
factor that Mr. Jahi was substantially impaired by
drugs and alcohol. While, Mr. Jahi’s intellectual
disability limited his ability to understand complicated law, he had always insisted that the crimes
would not have occurred but for his extreme level of
intoxication. Despite not being prepared to testify by
defense counsel, this was the explanation for the
crimes that Mr. Jahi attempted to present (without
any assistance from counsel). Defense counsel’s
waiver of this statutory mitigating factor was
contrary to Mr. Jahi’s objectives.
5.

Defense counsel deprived Mr. Jahi of the
opportunity to accurately express his
remorse and transformation.

Although Mr. Jahi’s remorse and transformation
are real and profoundly relevant to his fundamental
sentencing goal of asking the jury to spare his life,
defense counsel deprived him of the opportunity to
accurately present that information to the jury.
Instead, defense counsel refused to use Mr. Jahi’s
name throughout trial, and insisted on calling him
“Preston Carter.”
In closing argument, defense
counsel acknowledged that Mr. Jahi’s name had
changed, but he incorrectly told the jury this reflected
a change in religion. He otherwise denigrated the
name change. Mr. Jahi’s name, with Akil meaning
“One who uses reason” and Jahi meaning “dignity,”
was of great significance to Mr. Jahi. It was contrary

42a
to his objectives to have his name denied, mischaracterized and mocked by his defense counsel. Defense
counsel’s refusal to use Mr. Jahi’s legal name and his
inaccurate interpretations of the motivations and
meaning of that change reflects a profound denial of
Mr. Jahi’s constitutionally protected legal autonomy.
C. Violations of Mr. Jahi’s constitutional right to
choose the objectives of his representation
entitle him to a new sentencing hearing.
The denial of Mr. Jahi’s right to choose the objectives of his defense is structural constitutional error.
McCoy, 138 S. Ct. at 1510–11. Defense counsel
“block[ed] [Mr. Jahi’s] right to make the fundamental
choices about his own defense.” Id. at 1511. In cases
of structural error, there is no need to demonstrate
prejudice, and harmless error analysis is inapplicable. Id. The only remedy for a structural error at
sentencing is a new sentencing hearing. Id.
CONCLUSION
This Court should reopen Akil Jahi’s
post-conviction proceedings in light of McCoy v.
Louisiana, grant a hearing on his claim, grant
post-conviction relief, and order that Mr. Jahi be
resentenced through a hearing in which he will be
represented by an attorney who will allow Mr. Jahi to
establish the objectives of his defense consistent with
McCoy.

43a
Peter C. Sales (No. 25067)
JeffreyW. Sheehan (No. 33534)
BRADLEY ARANT BOULT
CUMMINGS LLP
1600 Division Street, Suite 700
P.O. Box 340025
Nashville, Tennessee 37203
(615) 252·2365
(615) 252·2392
psales@bradley.com
jsheehan@bradley.com
Christopher E. Thorsen (No. 21049)
BAKER, DONELSON, BEARMAN,
CALDWELL & BERKOWITZ, PC
211 Commerce Street, Suite 800
Nashville, TN 37201
(615) 726·5586
cthorsen@bakerdonelson.com
Attorneys for Petitioner-Applicant
Akil Jahi fka Preston Carter

44a
APPENDIX E − TENN. CODE ANN.
§ 40-30-117. MOTIONS TO REOPEN,
EFFECTIVE: MAY 27, 2011
(a) A petitioner may file a motion in the trial court to
reopen the first post-conviction petition only if the
following applies:
(1) The claim in the motion is based upon a final
ruling of an appellate court establishing a constitutional right that was not recognized as existing at the
time of trial, if retrospective application of that right
is required. The motion must be filed within one (1)
year of the ruling of the highest state appellate court
or the United States supreme court establishing a
constitutional right that was not recognized as
existing at the time of trial; or
(2) The claim in the motion is based upon new
scientific evidence establishing that the petitioner is
actually innocent of the offense or offenses for which
the petitioner was convicted; or
(3) The claim asserted in the motion seeks relief from
a sentence that was enhanced because of a previous
conviction and the conviction in the case in which the
claim is asserted was not a guilty plea with an agreed
sentence, and the previous conviction has subsequently been held to be invalid, in which case the
motion must be filed within one (1) year of the finality
of the ruling holding the previous conviction to be
invalid; and
(4) It appears that the facts underlying the claim, if
true, would establish by clear and convincing

45a
evidence that the petitioner is entitled to have the
conviction set aside or the sentence reduced.
(b) The motion must set out the factual basis
underlying its claims and must be supported by
affidavit. The factual information set out in the
affidavit shall be limited to information which, if
offered at an evidentiary hearing, would be admissible through the testimony of the affiant under the
rules of evidence. The motion shall be denied unless
the factual allegations, if true, meet the requirements
of subsection (a). If the court grants the motion, the
procedure, relief and appellate provisions of this part
shall apply.
(c) If the motion is denied, the petitioner shall have
thirty (30) days to file an application in the court of
criminal appeals seeking permission to appeal. The
application shall be accompanied by copies of all the
documents filed by both parties in the trial court and
the order denying the motion. The state shall have
thirty (30) days to respond. The court of criminal
appeals shall not grant the application unless it
appears that the trial court abused its discretion in
denying the motion. If it determines that the trial
court did so abuse its discretion, the court of criminal
appeals shall remand the matter to the trial court for
further proceedings.

